OIG Investigative Reports, Former State School Superintendent Linda Schrenko Sentenced to Eight Years in Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
July 12, 2006
http://www.usdoj.gov/usao/gan/
U. S. Attorney David E. Nahmias
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, GA 30303-3309
Contact: Patrick Crosby
Tel: 404-581-6016
Fax: 404-581-6160
FORMER STATE SCHOOL SUPERINTENDENT LINDA SCHRENKO SENTENCED
TO EIGHT YEARS IN FEDERAL PRISON
Atlanta, GA - Former Georgia School Superintendent LINDA C. SCHRENKO,
55, of Grovetown, Georgia, was sentenced today by United States District Judge
Clarence Cooper to eight years in federal prison and ordered to pay restitution
of $414,887.50 for conspiring to steal public funds and launder them into her
failed gubernatorial campaign in 2002. SCHRENKO, who pleaded guilty on May 10,
2006, to fraud and money laundering charges a week and a half into her trial,
also surrendered her personal vehicle to be applied to restitution, and paid
a special assessment of $200.
United States Attorney David E. Nahmias said about the case, "As Judge Cooper
told Ms. Schrenko in court today, her sentence should send a strong message
to those who would abuse the public trust to enrich themselves. Ms. Schrenko
is facing eight years in federal prison for stealing public funds meant for
the education of Georgia's children and using those funds for a political campaign
and personal gain. But her sentence is shorter than it could have been, because
she finally accepted responsibility, pleaded guilty, and agreed to cooperate
to help ensure that her co-conspirators would also face justice. Those who violate
the public's trust must expect one day to face serious consequences."
FBI Special Agent In Charge Greg Jones said of the case, "As citizens of Georgia,
we expect our elected officials to be faithful stewards of taxpayer's money
and of the public's trust. When that trust is betrayed, citizens can expect
that the FBI will work diligently along with the United States Attorney's Office
to seek justice and restore public confidence in government. We want to thank
our colleagues at the United States Department of Education for their assistance
in this investigation."
John P. Higgins, U.S. Department of Education Inspector General, said, "I am
proud of the contribution of OIG Special Agents in holding former Superintendent
Schrenko accountable for her fraudulent activity. The misappropriation of federal
education dollars by Ms. Schrenko and her co-conspirators came at the expense
of Georgia students, as well as the American taxpayer. That is unacceptable.
My office will continue to aggressively pursue those who seek to defraud federal
education programs at the expense of our nation's students."
According to Nahmias, the plea agreements and evidence in the case: In the
summer of 2002, SCHRENKO, who at the time was the State School Superintendent
of Georgia, and her former Deputy Superintendent, MERLE TEMPLE, conspired with
STEPHAN BOTES, the owner of a computer consulting company, to fraudulently obtain
over a half million dollars of federal funds administered by the Georgia Department
of Education. The evidence showed SCHRENKO personally ordered the Georgia Department
of Education to issue checks in amounts just under $50,000, totaling over $500,000,
to various companies owned and controlled by BOTES, purportedly to provide computer
licenses and services to the Atlanta Area School for the Deaf, the Georgia School
for the Deaf, and the Governor's Honors Program.
SCHRENKO personally ordered payments to BOTES' companies at a time when no
services had been performed and no contracts for services existed. SCHRENKO
directed the Department to issue 11 checks on one day, July 24, 2002, in amounts
just under $50,000, the maximum amount allowed by her signature alone. The monies
ostensibly were to go for services to be provided to the Atlanta Area School
For the Deaf, Georgia School For the Deaf, and the Governor's Honors Program.
However, products and services were not provided, and approximately half of
the fraudulent proceeds were secretly funneled into SCHRENKO'S campaign and
to third parties to pay expenses for the campaign. The indictment charged that
after SCHRENKO's unsuccessful campaign to run for governor, she used $9,300
of the Education funds to pay for her own cosmetic surgery.
Co-defendant MERLE TEMPLE is scheduled to be sentenced at 9:30 a.m. on August
10, 2006, and co-defendant STEPHAN BOTES is scheduled to be sentenced at 9:30
a.m. on August 22, 2006, both before Judge Cooper.
The case was investigated by Special Agents of the U.S. Department of Education,
Office of the Inspector General, and the FBI.
Assistant United States Attorneys Russell G. Vineyard and Daniel A. Caldwell
are prosecuting the case.
For further information please contact David E. Nahmias, United States Attorney
or Charysse L. Alexander, Executive Assistant United States Attorney, through
Patrick Crosby, Public Affairs Officer, U.S. Attorney's Office, at (404) 581-6016.
The Internet address for the HomePage for the U.S. Attorney's Office for the
Northern District of Georgia is www.usdoj.gov/usao/gan.
Top
Printable view
Share this page
Last Modified: 07/13/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov